                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11   Case Number: 1-06-07-0018                                                    11          Page 1 of 1



          This investigation was opened based on general concerns expressed to OIG regarding the
          relationship between NSF's Office of Experimental Program to Stimulate Competitive Research
          (EPSCoR) and an external organization1that received NSF EPSCoR funds and employed former
          NSF EPSCoR personnel.

          The investigation, which included record reviews, witness interviews, and examination of
          subpoenaed financial records, disclosed no evidence of any conflicts of interest, fraud, or other
          impropriety.

          In light of the above and in the absence of a specific complaint of wrongdoing, this case is closed.
